<html>
<title> - EXPANDING AND IMPROVING OPPORTUNITIES TO VOTE BY MAIL OR ABSENTEE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   EXPANDING AND IMPROVING OPPORTUNITIES TO VOTE BY MAIL OR ABSENTEE

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 16, 2007

                               __________

                       Printed for the use of the
                   Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

40-5011 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California           VERNON J. EHLERS, Michigan
ARTUR DAVIS, Alabama


   EXPANDING AND IMPROVING OPPORTUNITIES TO VOTE BY MAIL OR ABSENTEE 

                              ----------                              


                       TUESDAY, OCTOBER 16, 2007

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Gonzalez, Davis of 
California, Davis of Alabama, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Matt Pinkus, 
Professional Staff/Parliamentarian; Thomas Hicks, Senior 
Election Counsel; Janelle Hu, Election Counsel; Jennifer Daehn, 
Election Counsel; Kristin McCowan, Chief Legislative Clerk; 
Daniel Favarulo, Staff Assistant/Elections; Matthew DeFreitas, 
Staff Assistant; Fred Hay, Minority General Counsel; Bryan 
Dorsey, Minority Professional Staff; Gineen Beach, Minority 
Election Counsel; and Roman Buhler, Minority Election Counsel.
    Ms. Lofgren. As it is 2 o'clock, the subcommittee will come 
to order.
    Good afternoon and welcome to the Subcommittee on 
Elections, our hearing on ``Expanding and Improving 
Opportunities to Vote by Mail or by Absentee.''
    Absentee voting and vote-by-mail are increasingly being 
used by State and local governments; however, the concept is 
not a new one. In 1998, it is worth noting that Oregon passed 
legislation directing all elections to be conducted by mail; 
and other States such as California, Ohio, Maine, Maryland, 
South Dakota, Vermont and Washington have vote-by-mail or allow 
for permanent absentee ballots. In fact, under a law signed by 
then-Governor George Bush, Texas even allows residents to cast 
absentee ballots from space.
    Research on vote-by-mail shows that it results in increased 
turnout, a less costly election, uniform and strict compliance 
to State law through a centralized process and an automatic 
paper trail. Voters find that vote-by-mail is more convenient 
and user friendly. It also provides them more time to study the 
ballot.
    However, vote-by-mail and absentee voting is not without 
criticism. Some are concerned about chain-of-custody issues, 
possible voter fraud, and suppressed voter participation. While 
I respect these criticisms, I believe that studies show 
otherwise. A centralized location for ballot collection and 
counting results in increased security and compliance with 
State law. On average, vote-by-mail elections cost 30 percent 
less than regular polling place elections, and I would note 
that in my own county of Santa Clara, the county has bought ads 
on the buses asking people to please sign up because it will 
help with their budget issues on elections.
    I believe also that the concern over voter fraud is 
overblown. Oregon, which has been doing vote-by-mail for the 
past 9 years, has only prosecuted one case of voter fraud since 
1998. Vote-by-mail is also a significant tool used by States to 
maintain their voter lists. Most States which use no-excuse 
vote-by-mail result in about a 15 percent increase in voter 
participation.
    I think it is also important to note that absentee voting 
can be used by our military to vote in all Federal elections. 
If absentee voting is good enough and secure enough for the men 
and women in the military, does it not make sense to extend 
that right to all eligible voters?
    Absentee voting and vote-by-mail provide a means for 
qualified voters to participate in upcoming elections. Access 
to the democratic process for all voters, be it at the polls or 
by mail, should be made as easy and secure as possible.
    Our witnesses today will discuss their experiences with 
absentee and vote-by-mail and how the process has changed and 
developed over the years to ensure the integrity and 
accessibility of the electoral process.
    At this point I would like to recognize the Ranking Member 
of this subcommittee, our colleague from California, Kevin 
McCarthy, for any opening statement that he may wish to offer.
    [The statement of Ms. Lofgren follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.001
    
    Mr. McCarthy. Thank you for recognizing me, Chairwoman 
Lofgren.
    Expanding opportunities to encourage more Americans to vote 
is a goal that cuts across party lines. To that end, the 
subcommittee will hear about four bills that our colleague from 
San Diego has introduced, which she will provide testimony to, 
and we will further discuss with a panel of witnesses.
    Before we analyze those bills, I want to point out my great 
disappointment with the majority's conduct in preparation for 
this meeting. I believe that Congress should conduct itself 
with fairness, transparency, and cooperation because in the 
end, Congress needs to push aside politics and instead push 
forward fair debate and the best solutions to address the needs 
of the American people.
    When I was sworn in this year, I listened very closely to 
our new Speaker. She used the phrase ``partnership, not 
partisanship.'' there are few issues in Congress that cry 
bipartisanship more than those within the jurisdiction of this 
subcommittee. We have the responsibility to find solutions that 
ensure elections are fair and give the American people 
confidence that their vote will not be diluted, miscounted, or 
manipulated for one party's gain.
    As you know, I produced the letter to you, Madam 
Chairwoman, asking that we have a level playing field, that we 
hear from all views. In the 109th Congress when the majority 
was different, when I look back upon the hearings, I look at 
the HAVA hearing where there were four Democrats and four 
Republican witnesses. Then I studied the 527 hearings on April 
20, 2005. There were four Democrats and three Republicans, when 
the Democrats were in the minority party. Then I studied the 
FEC-Internet hearing in this committee on September 22, 2005. 
There were four Democrats and four Republicans. I went to the 
Milwaukee hearing on 10/24/05. There were six Democrats and 
five Republicans.
    When I requested to have a panel here, that was individuals 
who were able to give testimony--I know it would be 10 minutes 
longer--I was denied because how hearings were held inside the 
Judiciary Committee. This is the House Administration 
Committee. When we had the Election Assistance Commission on 
June 8 of 06 we had two Democrats and two Republicans. When we 
had ID hearings when it came to voters on proposing IDs, we had 
five Democrats and five Republicans.
    A hearing on securing the vote of Arizona on 8/3/06, we had 
four Democrats and four Republicans. On the hearing of securing 
the vote in New Mexico, we had three Democrats and three 
Republicans. On the paper trail hearing on September 28, 2006, 
we had three Democrats and three Republicans.
    Today will be different. Today, we will have one side. We 
will have the testimony of the author and then we will have 
three witnesses from the majority and one witness from the 
minority.
    That is a disappointment to me. I want to make sure 
elections are entrusted, that we are given all the information 
possible, and I don't believe 10 minutes is too long to hear 
from all sides. There are lots of things that I wanted to 
change when I ran for Congress, but one thing I wanted to keep 
was House Administration being fair, honest, and being 
appropriate. I will submit my statement for the record.
    Ms. Lofgren. Without objection, your statement is submitted 
for the record, and other opening statements will be submitted 
for the record.
    [The statement of Mr. McCarthy follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.002
    
    [GRAPHIC] [TIFF OMITTED] 40511A.003
    
    [GRAPHIC] [TIFF OMITTED] 40511A.004
    
    [GRAPHIC] [TIFF OMITTED] 40511A.005
    
    [GRAPHIC] [TIFF OMITTED] 40511A.006
    
    Ms. Lofgren. And I will take the prerogative of the Chair 
just to briefly respond to the comments made. The ratio of 
witnesses in committees throughout the Congress is 3 to 1, and 
that does not mean we will never vary from that. But when I 
received your letter, actually Friday, this hearing had already 
been set.
    And certainly the majority reserves the right to set the 
agenda in the Congress and we hope to do that in as 
collaborative a way as possible. But I do not want to take 
further time from the testimony we will receive today.
    So we will go first to our first witness, Congresswoman 
Susan Davis, who was first elected in 2001 to represent 
California's 53rd Congressional District in the United States 
House of Representatives. She sits on the House Armed Services 
Committee, where she served as Chairwoman of the Subcommittee 
on Military Personnel. She also sits on the House Education and 
Labor Committee and the House Administration Committee.
    Prior to her service in Congress, Representative Davis 
served on the San Diego City School Board as well as three 
terms in the California State Assembly. Born in Cambridge, 
Massachusetts, Susan grew up in Richmond, California. She 
graduated from the University of California at Berkeley with a 
degree in sociology. She then earned a master's degree in 
social work from the University of North Carolina. And she is 
not only our colleague from California, but our colleague on 
the committee and really a leader in authoring bills that deal 
with this general subject. So we are thrilled to have you 
testimony here today, Susan.

   STATEMENT OF THE HON. SUSAN A. DAVIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Davis of California. Thank you. Thank you, Chairman 
Lofgren and Ranking Member McCarthy and fellow members of the 
subcommittee. I want to thank you for the opportunity to 
testify about giving all voters the option to vote by mail.
    I vote at the polls because I like to. As a Member of 
Congress, like you, I always have the general Election Day off, 
and sometimes even cameras show up. But voting in person is not 
so easy for many people.
    As my colleagues from California know, anyone can vote by 
mail in California for any reason. Voting by mail is so popular 
that 46 percent of Californians chose to vote that way in 2006. 
I took the right to vote by absentee for granted until 2004, 
when a nurse from Ohio that I met told me that she could not 
vote for President because the polls there were only open from 
7 a.m. to 7 p.m., hours that overlapped with her commute and 
her shift. She called her elections office in advance to 
request an absentee ballot but was told her work was not a 
valid reason to vote absentee. Since she would not abandon her 
patients, she did not vote. And neither did coworkers, nor 
undoubtedly thousands of citizens in Ohio and States with 
similar laws. Fortunately, Ohio has changed its laws to allow 
no-excuse absentee voting, but 28 States and territories still 
have not.
    I am going to turn to the slides. On this map the States in 
dark blue are either all vote-by-mail or offered no-excuse 
absentee voting. The lighter blue States require certain 
reasons or excuses to send an absentee ballot. Since Kansas 
started no-excuse absentee voting in 1967, 28 States have 
followed suit and no one has switched back.
    Notice that this map does not look like the red State, blue 
State map. States with both Democratic and Republican Governors 
and legislatures have switched to no-excuse absentee voting.
    As with poll voting, the advantage in mail voting goes to 
the better organized campaign, not to the political party.
    The next slide shows that the States that require excuses, 
these reasons vary widely. Many even basic excuses that we 
think of do not count in some States. As you can see, some 
States do not even allow election responsibilities, those who 
work at the polls, school, or jury duty to count as excuses. 
Sometimes work counts as an acceptable reason for requesting an 
absentee ballot, but sometimes it does not. And in some States 
any work is an excuse, but others have odd limiting laws.
    In Tennessee, you must be working outside the county with a 
commercial driver's license. In Alabama you must work at least 
a 10-hour shift. Every State has allowances for physical 
absence, but there is a range there, too. For example, in 
Indiana you must be out of the county for all 12 hours the 
polls are open. And in Louisiana you must be outside your 
parish not only on Election Day but for the entire early voting 
period.
    Illness and disability requirements vary as well. In 
Missouri you must be incapacitated or confined. In Michigan you 
can vote by mail only if you cannot make it to the polls 
without the assistance of another person. Some States allow 
people over a certain age to vote absentee. In Michigan it is 
over 60, in Mississippi it is 65, and in Georgia it is 75. 
Verification required for excuses also ranges and much of it is 
an invasion of privacy.
    On the next slide, this is the Virginia absentee voting 
ballot application. By the top circle you can see that it 
requires the voter to state where he or she will be 
vacationing. In the next area you have to indicate the exact 
hours of your work and give your employer's name and address. 
On the next you must list the nature of your disability or 
illness. And in the religion section, you have to explain the 
nature of your religious obligation.
    Does the government need to know this personal information 
just to let an American citizen exercise his or her right to 
vote?
    In the next slide, you will see in Delaware you need to put 
your location and phone number on Election Day. And here you 
need a notary signature to prove that you are on vacation or 
have religious obligations. The cost and hassle of this 
requirement equates to a modern-day poll tax.
    In Tennessee, on the next slide, there is not even an 
application form. You just have to write a letter. You can see 
from the requirements on the official Web site that the 
voters--and I would quote--the voter's licensed physician must 
file the statement with the County Election Commission stating 
that in the physician's judgment that the voter is medically 
unable to vote in person, unquote. It is not surprising that 
only 1.7 percent requested absentees are in Tennessee.
    These individual State restrictions are totally unnecessary 
as they do nothing to increase security. All they do is 
suppress the use of absentee ballots, which is around 1 to 10 
percent in most excuse States as opposed to the 20 to 50 
percent in no-excuse States. Voters have repeatedly shown that 
they want to be able to vote by mail.
    Allowing no-excuse absentee voting can increase turnout 
from anywhere between 2 and 10 percent, and sometimes much 
more. That may sound small but it would, in fact, be millions 
of voters nationwide. No voting system can ever be perfect, but 
absentee voting has proven to have comparatively few instances 
of foul play, as the other panelists will detail. The potential 
for vote suppression is clearly a much greater problem than the 
potential for fraud. Our goal should be to enable people to 
take part in the process, not to put up barriers.
    The reality today is that people pursuing the American 
dream are buying homes far from where they work. They get up 
early, commute long distances, and savor precious family time. 
Many people work hourly wage jobs and have to balance child 
care. They want to participate in democracy, but cannot or do 
not want to make a trip to the polls.
    With all the referendums on ballots these days it can take 
20 or 30 minutes to vote, even if you are first in line. Is a 
person any less patriotic for wanting to do his civic duty at 
his kitchen table rather than braving bad weather long lines 
and partisan politicking at the polls? Does he or she have less 
of a right to vote than other Americans?
    No excuse absentee voting does not force anyone to vote by 
mail. What it does is give voters a choice. Some people say the 
Federal Government has no business implementing no-excuse 
absentee voting. As a former State and local official, I have 
great respect for the role of the States but no-excuse absentee 
voting is not a violation of States rights. In fact, first, it 
levels the playing field. Keeping our current system allows 
voters in some States more opportunities to vote than others, 
and it creates a kind of inequity when voters are voting in the 
same election.
    Perhaps more important on a constitutional level, State and 
local officials are responsible for administering elections, 
but they cannot decide who can vote. That is the job of the 
Federal Government.
    In a recent national poll 94 percent said they believe 
society should make it as convenient as possible for eligible 
citizens to vote, and 58 percent said Congress should work to 
make voting easier.
    I ask that the subcommittee members support my Universal 
Right to Vote by Mail bill, H.R. 281. This bill would simply 
require that all voters be given the opportunity to vote by 
mail for any reason, and without the added burdens such as a 
notary and doctor's signatures. It would not change any State 
laws regarding deadlines or voter ID requirements.
    I certainly hope that this Congress will expand absentee 
voting and by doing so move forward in fulfilling the American 
promise of democracy: A vote for every citizen.
    Thank you very much, Madam Chair.
    Ms. Lofgren. Thank you very much, Congresswoman Davis.
    [The statement of Mrs. Davis of California follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.007
    
    [GRAPHIC] [TIFF OMITTED] 40511A.008
    
    [GRAPHIC] [TIFF OMITTED] 40511A.009
    
    [GRAPHIC] [TIFF OMITTED] 40511A.010
    
    [GRAPHIC] [TIFF OMITTED] 40511A.011
    
    Ms. Lofgren. I don't know whether members have questions 
for our colleague.
    Mr. McCarthy. You are recognized for 5 minutes.
    Mr. McCarthy. You have no questions?
    Ms. Lofgren. I was going to defer to you.
    Mr. McCarthy. I will defer to the Chair. I will go after 
you.
    Ms. Lofgren. Mr. Gonzalez, do you have questions?
    Mr. Gonzalez. Thank you very much, Madam Chair. And I know, 
Congresswoman Davis, you already pointed out, the only thing 
you are looking for, and many that are supporting what you are 
doing here today, is to give the voter a choice to actually 
vote by mail or drop-off. But you would not be imposing an 
Oregon-style model on any State where it would be the only way 
that basically you would be able to vote. That's not what you 
do. You are not replacing the polling place; it is just an 
alternative that we already have in many States, except that it 
does require an excuse.
    Mrs. Davis of California. Actually, one of the things that 
we are doing is building on what is already there. Every State 
allows some absentee voting. So you are building on what has 
been established over many, many years in these counties. But 
this, the excuses that we talked about, that people have to 
demonstrate and have the doctors' or notaries' signatures, that 
does not seem to create security at the polls. I think it only 
creates an additional burden on the voter.
    Mr. Gonzalez. Now, the fears that have been expressed, of 
course, is that this provides greater opportunity for fraud. 
And what would be your response? I know you say that there is 
no evidence out there. I think we are going to have a witness 
that will testify to the contrary. But what is your experience 
or your knowledge regarding that particular fear?
    Mrs. Davis of California. I think we do have some folks 
here who will testify on both sides essentially of that issue. 
But the check of a signature is actually quite substantive and 
quite different from at the polls. I don't know, Mr. McCarthy, 
if you recall, we had a discussion about this when we were 
talking about other pieces of legislation. And, in fact, that 
check is significant for absentee voters. And we have even 
better qualified in some cases and highly trained people who 
are doing that process. We have a gentleman who will testify 
that they have an automatic process in terms of the check on 
signature.
    So I think that there are always going to be a small number 
of problems. We have them whether people are at the poll site 
or not. But we have found that that particular check really 
does increase the opportunities for people and does not 
increase the fraud. And I think there will be folks who will 
testify on that.
    Mr. Gonzalez. Thank you very much. I yield back.
    Ms. Lofgren. Mr. McCarthy.
    Mr. McCarthy. Thank you. I know we had a conversation, and 
I was just wondering if you could--I noticed you said that you 
haven't had any knowledge of fraud in absentee ballots; is that 
correct?
    Mrs. Davis of California. There is very little over the 
years that has been substantiated in that regard----
    Mr. McCarthy. You know there was a Dallas Morning News 
story this week----
    Mrs. Davis of California. There, again, having a 
perspective on that.
    Mr. McCarthy. There is a Dallas Morning News story this 
week and then there is also actually a Postal Service serving 
18 months that just happened this year. Unfortunately, we are 
not able to have more than one witness, but there are others 
who have submitted some information. You have the Indiana 
Democratic Party, Dan Parker, he is the chair. He says mail-in 
absentee vote fraud is the only type of vote fraud that has 
ever been in existence. And I think some of their arguments 
from one standpoint is when you go inside the ballot box, 
nobody is around that can influence. When you vote by absentee, 
no one knows who is around. There can be influence around them.
    When you vote by absentee, someone puts it in the mail. I 
know you and I talked about the voter check on the signature. 
Do you think that is sufficient for everybody across the 
country to have that?
    Mrs. Davis of California. Well, I think it is a strong 
check. And there are ways that, if they receive at the 
registrar a signature that does not match, they contact that 
individual.
    Mr. McCarthy. They contact them now? Like if I voted in 
Kern County and my vote did not count, they would call me?
    Mrs. Davis of California. Yes. I know that from personal 
experience because my husband's signature has gotten less 
legible than it used to.
    Ms. Lofgren. He is a physician.
    Mr. McCarthy. So everybody who votes gets contacted? 
Because I have had a different experience.
    Mrs. Davis of California. It depends. I can't speak for 
every county, but I know that----
    Mr. McCarthy. How does that work? If I vote absentee, isn't 
it in California there are certain people that can--you cannot 
turn in your absentee--you could also turn it in at a polling 
place and it could not be you who turns it in. Who all can turn 
in an absentee ballot?
    Mrs. Davis of California. If it is signed, my understanding 
is that somebody can bring it to the polls.
    Mr. McCarthy. Anybody could? If I am a neighbor, I could 
pick it up and turn it in if they signed it?
    Mrs. Davis of California. I believe they can, yes. Once 
that person has voted. Again, you can tell if it has been 
tampered with after somebody has sealed it.
    Mr. McCarthy. One of my prior jobs was working for a member 
who was on this committee and we did many contested elections. 
One was Charlie Rose, who happened to be Chair, and we found 
voter registration absentees were a great deal. One happened to 
be Dornan and Congresswoman Sanchez. And in California you can 
only be a relative. And in L.A., one of the contested races 
when they were going through--what they do is when they send it 
in, you sign it, they run the absentee, which the ballot is 
inside, and they don't open it until they check. So they put on 
and have one person checking, based on the voter registration, 
to see if it has ever changed. On there it asks you what member 
of the family you are. If you leave it blank, they assume you 
are a member and count it. If you put in that you are a 
neighbor, they throw it away. And they never contacted that 
person that it was going through. So I have some concerns from 
that perspective.
    Now on your slide, you put up Tennessee as one of your 
States. Is your goal here to get greater turnout for Tennessee, 
because absentee would provide that?
    Mrs. Davis of California. The goal is to allow someone who 
wants to vote absentee to be able to do that without an 
unnecessary burden of having a notary sign that, of having a 
physician--perhaps your physician is not available to be able 
to sign for you that you, in fact, are ill and are not able to 
go to the polls that day.
    Mr. McCarthy. What was the percentage you said in 
Tennessee? Because they had a problem such as that, correct?
    Mrs. Davis of California. About 1 percent request absentee 
ballots in Tennessee; 1.7 percent.
    Mr. McCarthy. And you believe--and that is based upon that 
they have to get a physician's signature?
    Mrs. Davis of California. I don't know what it is based 
upon. I am just suggesting that that is a very low percentage 
of people requesting absentee ballots.
    Mr. McCarthy. How many people in Tennessee vote early 
voting?
    Mrs. Davis of California. A larger number vote early 
voting. And we actually had some numbers and we wanted to check 
those thoroughly. But I don't believe--I don't know how they 
put those together. But we have the 1.7 percent of those who 
request absentee ballots.
    Mr. McCarthy. California has absentee. How many vote 
absentee in California? Is it 30 percent?
    Mrs. Davis of California. It depends on the number. I 
think, as they will testify in Santa Barbara, far larger 
numbers than that request absentees or have permanent 
absentees. And, again, you have high voting turnout in those 
particular communities.
    Mr. McCarthy. Unfortunately, I am sorry, we had a couple of 
witnesses that have studied this and are experts in it. And 
their argument from one standpoint is on the studies that 
absentee voters turn out more when it is a local election, but 
when it is taken over the whole State you don't get greater 
turnout. Tennessee, you said, there was 1.7. But I have a fact 
that 50 percent of them vote early voting. I would love to be 
able to question them and go back on their statistics. Is that 
because they can vote 2 weeks in advance, vote in shopping 
centers and others, is that why they are not requesting 
absentee because it is fulfilling the need? They know they are 
going to be gone that day at work. We are solidifying their 
problem, but the other fact they have is you don't get a 
greater turnout.
    So I wish that we would be able to have that dialogue and 
that debate, but unfortunately we won't today.
    Mrs. Davis of California. As I testified, sometimes it is a 
few percentage points. But if you count those up nationally it 
is a significant number.
    Ms. Lofgren. I will just make one comment and then get to 
our witnesses. One of the arguments that is made in opposition 
to absentee ballots is that somehow there might be undue 
influence. And this has always mystified me because the person 
who asked for the absentee ballot gets to fill it out wherever 
they want. They can fill out at the dinner table or in the 
backyard. It is their choice.
    I don't see how you could ever be oppressed by that when it 
is the voter making the decision on what they want to do. I 
mean, do you understand that?
    Mrs. Davis of California. I don't understand that. I know 
that certainly in families we also influence one another in 
our----
    Ms. Lofgren. We try.
    Mrs. Davis of California. We try. Exactly. I remember--
maybe you have had this experience--of going to a door and 
asking for somebody and them saying, ``You talk to me.'' You 
don't talk to the person you just asked for.
    Obviously there is a certain amount of influence, but 
again, you point out that they are doing that by choice. And I 
think that certainly in California we have very complicated 
ballots. And I think that is one reason why absentee voting is 
very popular because people can take the time. They don't feel 
stressed, they are not standing in line, they are not worried 
if a machine is going to break. All those things.
    And I think across the country, you want to have it equal. 
So everybody who has a desire to be able to vote in that frame 
is able to do that. It does not put any pressure on them to do 
it, but it does allow them to do it, and I think the map is 
quite striking that we haven't had any kind of a universal 
plan--up until this time, hopefully.
    Ms. Lofgren. Thank you very much. And with that, we will 
ask you to join us up here on the panel and we will ask the 
next witnesses to come forward.
    Mr. McCarthy. Madam Chair.
    Ms. Lofgren. Yes.
    Mr. McCarthy. As we have been discussing over the past few 
days, I would like to make my request again that Mr. Curtis 
Gans--who is in the audience today and we have submitted his 
testimony--be allowed to testify and answer questions as part 
of the second panel. I strongly believe that as this is the 
subcommittee that conducts oversight of Federal elections and 
considers legislation effecting the way in which Federal 
elections are administered, it is crucial that this 
subcommittee hear from and have the opportunity to question 
witnesses with the broadest spectrum of opinions as possible. I 
ask again that Mr. Gans be invited at that time to the panel.
    Ms. Lofgren. I would be happy to make his testimony a part 
of the record by unanimous consent. And I will just say that I 
think this is a stunt on your part, Mr. McCarthy. I got this 
letter, it was late. If you were serious, you would have talked 
to me personally.
    I am not ruling out the opportunity to do various ratios in 
the future. The majority has the responsibility to set the 
agenda in the Congress. Certainly when the Republicans were in 
the majority, that was the case. And I am not going to be 
willing to deal with a stunt here the day of the hearing.
    I would note also that by practice the majority also always 
issues the invitation to the witnesses, and the minority has 
varied from that practice in this case, which I find 
disrespectful.
    So with that, we will ask the witnesses to come forward.
    Mr. McCarthy. Madam Chair, I ask unanimous consent that the 
written testimony of Mr. Curtis Gans be included in the record. 
In addition, the minority has just received written testimony 
from Indiana Secretary of State, from John Fortier from the 
American Enterprise Institute, and from Norm Ornstein. I 
believe that they have some important opinions to share with us 
on this topic and I ask unanimous consent that their written 
statements----
    Ms. Lofgren. Without objection, the written statements will 
be entered into the record.
    [The statement of Mr. Gans follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.012
    
    [GRAPHIC] [TIFF OMITTED] 40511A.013
    
    [GRAPHIC] [TIFF OMITTED] 40511A.014
    
    [GRAPHIC] [TIFF OMITTED] 40511A.015
    
    [GRAPHIC] [TIFF OMITTED] 40511A.016
    
    [GRAPHIC] [TIFF OMITTED] 40511A.018
    
    [The statement of Mr. Rokita follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.019
    
    [GRAPHIC] [TIFF OMITTED] 40511A.020
    
    [GRAPHIC] [TIFF OMITTED] 40511A.021
    
    [The statement of Mr. Fortier follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.022
    
    [GRAPHIC] [TIFF OMITTED] 40511A.023
    
    [GRAPHIC] [TIFF OMITTED] 40511A.024
    
    [GRAPHIC] [TIFF OMITTED] 40511A.025
    
    [GRAPHIC] [TIFF OMITTED] 40511A.026
    
    [GRAPHIC] [TIFF OMITTED] 40511A.027
    
    [GRAPHIC] [TIFF OMITTED] 40511A.028
    
    [GRAPHIC] [TIFF OMITTED] 40511A.029
    
    [GRAPHIC] [TIFF OMITTED] 40511A.030
    
    [GRAPHIC] [TIFF OMITTED] 40511A.031
    
    [GRAPHIC] [TIFF OMITTED] 40511A.032
    
    [GRAPHIC] [TIFF OMITTED] 40511A.033
    
    [The statement of Mr. Ornstein follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.034
    
    [GRAPHIC] [TIFF OMITTED] 40511A.035
    
    [GRAPHIC] [TIFF OMITTED] 40511A.036
    
    [GRAPHIC] [TIFF OMITTED] 40511A.037
    
    [GRAPHIC] [TIFF OMITTED] 40511A.017
    
    Ms. Lofgren. Will the witnesses please come forward.
    I would like to first introduce Ruth Goldway who was 
appointed Commissioner of the United States Postal Regulatory 
Commission by President George W. Bush in November 2002 to 
serve a second term ending in 2008. She was first appointed by 
President Clinton in April of 1998. The PRC oversees the rates 
and classification system of the U.S. Postal Service. Ms. 
Goldway has written on postal matters for national newspapers 
and submitted congressional testimony.
    She represents the Commission on the State Department 
Delegation to the Universal Postal Union. Born in New York 
City, Ms. Goldway attended the Bronx High School of Science, 
earned a bachelor's degree from the University of Michigan and 
received a master's in English literature from Wayne State 
University.
    Next, Deborah Markowitz, the Secretary of State of Vermont, 
is joining us. She was elected Vermont's Secretary of State in 
1998 and is currently serving her fifth term in office. During 
her tenure Secretary Markowitz has made it a priority to 
improve Vermont's democracy and promote good citizenship. She 
has created resources to help Vermonters participate more fully 
in their annual town meetings and develop civics education 
curriculum materials, and implemented an ambitious election 
reform agenda.
    Secretary Markowitz is widely respected as one of the most 
knowledgeable resources in the State on legal and ethical 
issues for local officials and she has presented locally and 
nationally on effective leadership skills.
    Secretary Markowitz received degrees from the University of 
Vermont and Georgetown University Law Center. She was a 
founding director of the Vermont League of Cities and Towns 
Municipal Law Center and the founder of the Vermont Women's 
Leadership Initiative. She is the immediate past President of 
the National Association of Secretaries of State and serves on 
the board of advisors for the U.S. Election Assistance 
Commission.
    Joseph Holland is the Clerk of Santa Barbara County. He was 
first elected to the Office of the Clerk, Recorder and Assessor 
on March 5, 2002 and reelected to a second term on June 6, 
2006. He currently manages an $18 million budget and 120 staff 
employees encompassing three functional divisions: Assessor, 
Elections and Recorder.
    Mr. Holland earned his bachelor's and master's degree in 
economics from UC Santa Barbara and graduated from the UCLA 
Anderson School of Business in 2001.
    And finally Jonathan Bechtle, the Director of Citizenship 
and Governance Center at the Evergreen Freedom Foundation, the 
minority's witness. Mr. Bechtle serves as Director of 
Evergreen's Freedom Foundation, Citizenship, and Governance 
Center, a think tank advocating for liberty, free enterprise 
and responsible government. Prior to joining EFF, he served as 
the senior legal assistant for a nonprofit legal advocacy firm 
in the Washington, D.C. area. He also worked as an aide to 
State senators in both Georgia and the State of Indiana. 
Jonathan earned a juris doctorate from the Oakbrook College of 
Law in Fresno, California.
    And we welcome all of you.

  STATEMENTS OF RUTH GOLDWAY, COMMISSIONER, POSTAL REGULATORY 
COMMISSION; DEBORAH L. MARKOWITZ, SECRETARY OF STATE, VERMONT; 
   JOSEPH HOLLAND, CLERK, SANTA BARBARA COUNTY; AND JONATHAN 
BECHTLE, DIRECTOR AND LEGAL ANALYST, CITIZENSHIP AND GOVERNANCE 
           CENTER, EVERGREEN FREEDOM FOUNDATION (EFF)

    Ms. Lofgren. And if we could begin with you, Ms. Goldway.
    I would note you have seen the little machine there. We are 
operating under the 5-minute rule. We would ask that your 
testimony be about 5 minutes. You will notice I am not too 
heavy on the gavel. When the yellow light goes on, it means you 
have a minute, and when the red light goes on it means you have 
used the whole 5 minutes. Your full statements will be made a 
part of the written record.
    So we would ask, Ms. Goldway, if you could begin with your 
5 minute statement.

                   STATEMENT OF RUTH GOLDWAY

    Ms. Goldway. I will do my best to be brief.
    Chairwoman Lofgren, Ranking Member McCarthy and members of 
the subcommittee, I appreciate the opportunity to present my 
views at today's hearings. I have served as Commissioner at the 
Postal Regulatory Commission for 9 years. I would say that I am 
familiar with how the mail stream works, how 700 million pieces 
of mail are delivered each day, and how reliable our Postal 
Service is.
    My comments reflect my personal views, not those of the 
Commission as a whole.
    Like this subcommittee's Chair and Ranking Member, I am 
also from California. And since the introduction of voter 
choice permanent absentee registration there in 2002, I have 
witnessed, myself, that absentee ballots have become ever more 
popular; and in California, they were over 40 percent of the 
vote in 2006. We found that it works.
    And I applaud the efforts of Representative Susan Davis, 
another Californian, for putting forward legislation to expand 
the opportunities for absentee ballots and vote-by-mail 
throughout the Nation.
    In 2000 and 2002, absentee ballots accounted for about 16 
percent of the votes cast nationally. However, there was a 
great disparity between those States that allow no-excuse 
absentee ballots and those restricting them. And while about 29 
States currently allow for no-excuse absentee ballot, even many 
of those require requests for absentee ballots at each 
election, a requirement that may limit a citizen's use.
    Offering citizens the option of voting by mail provides 
significant advantages, including the potential to increase 
voter turnout for national, State, and local elections. Voters 
would not need to take time off from work, find transportation, 
locate the right polling place, get baby-sitters or rush 
through critical yet sometimes complicated ballot initiatives.
    As the former Mayor of Santa Monica, I know how important 
these initiatives are. Voters appreciate the opportunity to 
read a ballot slowly in the privacy of their homes, and to drop 
it in the mail, exercising their voting franchise thoughtfully 
and carefully.
    We all know that public confidence in the accuracy of vote 
counting is at an all-time low. Yet in the national polls, the 
Postal Service is rated as the most trustworthy of Federal 
Government institutions. I advocate voting by mail because the 
U.S. mail provides a secure way for citizens to cast their 
ballots. In fact, it is against the law, a Federal crime to 
tamper with the mail, and the U.S. Postal Service employs the 
U.S. Postal Inspection Service to ensure the security of the 
mail throughout.
    I am an advocate of the advantages of a verifiable and 
transparent paper trail offered by mail voting. The Postal 
Service can provide a system of hardcopy distribution and 
collection that many voters believe is the best way to protect 
their votes.
    After seeing the decline in first class mail due to the 
Internet, the Postal Service began working with State and local 
officials to promote its election mail program and to make that 
process simpler and more accountable. The Service has 
designated election mail representatives in field offices 
throughout the country to work with election officials, and has 
created a section on its Web site entitled ``Election 
Officials' Mail Resources.'' It has developed an election mail 
logo for the exclusive use of election officials' mailings that 
makes election mail easily identifiable as it moves through the 
mail processing system and alerts mail handlers to promptly 
move the mail to the voter or back to the appropriate local 
election official.
    The intelligent-mail bar code technology currently being 
implemented by the Postal Service for bulk mailers could be 
adapted for use with ballots, thereby allowing voters to check 
on the location and status of their vote by entering a tracking 
number by phone or over the Internet.
    After the 2000 elections, at the urging of Congress, the 
Postal Service developed an expedited national standard to 
handle overseas ballots for military and U.S. Government 
personnel called the APO-FPO Ballot Express. Similar procedures 
can and should be developed for local and State mail-in 
ballots. National standards regarding the counting of ballots, 
based on postmark rather than the arrival in the election 
office, should be evaluated by Congress in consultation with 
the Postal Service, as should the idea of establishing a first 
class stamp as the uniform ballot rate regardless of the 
ballot's weight or size, or instead offering prepaid postage 
for mail ballots.
    The U.S. Postal Service is the only Federal agency that 
provides truly universal and reliable service to every resident 
6 days a week. It should be called upon to meet the latest 
challenge to the integrity of our democracy resulting from the 
electorate's distrust of electronic voting and their skepticism 
about the truthfulness of electronic election outcomes.
    As a regulator of the Postal Service I will do what I can 
to ensure that the election mail process becomes an important 
part of the mail stream and that service standards for the 
various classes of mail are consistent with the unique needs of 
election mail.
    As a citizen, I am here to support mail-in ballots as a 
secure and efficient alternative to in-person voting, I think 
it is a win-win proposal.
    Thank you, Chairwoman Lofgren, Ranking Member McCarthy and 
members of the subcommittee. I respectfully request that my 
written statement be included in the record and I will be happy 
to answer any questions you may have.
    Ms. Lofgren. It will be entered in the record.
    [The statement of Ms. Goldway follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.038
    
    [GRAPHIC] [TIFF OMITTED] 40511A.039
    
    [GRAPHIC] [TIFF OMITTED] 40511A.040
    
    [GRAPHIC] [TIFF OMITTED] 40511A.041
    
    Ms. Lofgren. Secretary of State Markowitz, welcome.

               STATEMENT OF DEBORAH L. MARKOWITZ

    Ms. Markowitz. Well, thank you so much. Thank you, 
Congressman Lofgren. I want to begin by thanking you for 
inviting me to come speak to you here today, and thank the 
committee members for taking this testimony. You do have a copy 
of my written testimony and I thought I would sort of make some 
highlights--highlight certain parts of it.
    First of all, I was first elected in 1998. In that election 
there were about 10 percent of our voters voting by no-excuse 
absentee voting. And indeed it was 1991 that Vermont first 
dropped the requirements for an excuse in order to get an 
absentee ballot. And I would like to note that it was a couple 
secretaries--a couple before me who really promoted this 
effort. He is currently our Governor, Jim Douglas, a 
Republican. So in Vermont it was not seen as a partisan issue 
at all.
    Since 1998, my office has made a great effort in educating 
our public about their rights under the law generally. And as a 
result of some great collaborations we had with particularly 
our business community, the chambers of commerce, our largest 
employers, and with the organizations that work with our low-
income Vermonters and also Vermonters who are not confidently 
literate, we have increased participation from 10 percent in 
1998 to 20 percent. This is participation using the absentee 
ballot. And so in this last election, we had over 20 percent of 
our voters choose to vote using the absentee ballot.
    What we have learned in Vermont essentially is that voters 
really like having this option. We could not turn away from it. 
Our voters really like having the convenience of voting by mail 
or stopping off at the town clerk's office to pick up a ballot 
to mail it in later. We find actually that it is the bigger 
elections where more voters are interested in using an absentee 
ballot. It is the Presidential elections, because people are 
worried about lines at the polls. And people feel more 
interested and compelled to make sure their vote is cast.
    What we have also found is our elections administrators 
really like this option. They were afraid in the beginning as 
the numbers grew that it was going to be too much work for 
them. But what they found instead is that it spreads the work 
over a period of time. You can begin voting by absentee ballot 
30 days in advance of the election. And what they found is that 
it spreads the workload so that on Election Day there is less 
pressure, there are fewer lines, and things run for smoothly.
    That being said, I would suggest that there are a couple of 
safeguards--important safeguards that you take into account as 
you look at possible legislation and as you evaluate this for 
the country. First of all, in our elections systems we want to 
have transparency and accountability at every step of the way. 
And one of the ways with our absentee ballots that we do this 
in Vermont is, it is public record who has requested an 
absentee ballot; it is public record when that ballot is 
mailed; and it is public record when it is returned. And that 
allows the campaigns, the candidates, it allows the public to 
let us know if they think there is any funny business, because 
it is transparent. People know who is voting early and who is 
voting by mail.
    In Vermont, we investigate all reports of violations. We 
take that very seriously. I think that is important. But we 
found that the best way to prevent problems is with good 
training and public education. We train the election workers, 
we train the campaign workers, because campaigns like absentee 
ballots because it is a way to reach hard-to-reach voters and 
to make sure they actually vote. It is easy to get them to say, 
yes, I support the candidate. But it is harder to get them to 
take that second step which is to actually cast the ballot.
    We also have a very strict bipartisan process of handling 
the ballots and I think that is critical. There needs to be, at 
every step of the way, systems in place to prevent collusion, 
to prevent fraud. And as the ballots are received and 
processed, it is with pairs of election workers who are a check 
and a balance against each other.
    We have procedures in place to preserve voter privacy. If I 
get one concern from the public it is: Will people know how I 
vote or not? And so it is important to have very transparent 
measures for protecting that privacy.
    And, finally, it is important to have public education so 
that folks know if they are going to vote 28 days in advance, 
things might happen that might lead them to change their mind 
and they don't get that ballot back. Once it is submitted, it 
is as if it is in the ballot box. You can't get it back. It is 
important for the public to understand how the process works.
    I am very happy to take your questions and I want to thank 
you again for inviting me.
    Ms. Lofgren. Thank you.
    [The statement of Ms. Markowitz follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.042
    
    [GRAPHIC] [TIFF OMITTED] 40511A.043
    
    [GRAPHIC] [TIFF OMITTED] 40511A.044
    
    [GRAPHIC] [TIFF OMITTED] 40511A.045
    
    Ms. Lofgren. Mr. Holland.

                  STATEMENT OF JOSEPH HOLLAND

    Mr. Holland. Chairwoman Lofgren, members of the 
subcommittee, thank you for having me here. I am County Clerk 
for Santa Barbara County, and as the registrar of voters it is 
my duty to run the elections for Santa Barbara County. I am 
also a member of the board of directors for the California 
Association of Clerks and Election Officials, and as a member 
of this board, I am also heading up an ad hoc vote-by-mail 
committee that is focused on identifying relevant issues and 
best practices for California counties in providing vote-by-
mail voter services for California voters.
    California has had no-excuse absentee voting since 1978. 
With the advent of no-excuse absentee voting, Californians have 
increasingly chosen to vote by absentee ballot in each 
election. In the most recent November general election, over 40 
percent of the votes cast in California were ballots cast 
through the mail.
    If you will look at your first attachment in the handout 
that I provided you, there is the history of voting in general 
elections in vote-by-mail in California dating back to 1976--or 
1978. And you can see that with the advent of no-excuse 
absentee voting, it really did not start off all that quick. It 
was a gradual increase to get to where we are right now, but 
with this increase we do expect it to continue to grow at this 
rate.
    Beginning in January 2002, new legislation took effect that 
allowed California voters to sign up to become permanent 
absentee voters. By registering with permanent absentee status, 
California voters are assured of being mailed an absentee 
ballot to their residence 29 days before each and every 
election. This permanent absentee status remains in effect 
until the voter fails to cast a vote in two consecutive 
statewide elections.
    Permanent absentee voting has proven to be very popular in 
California. For those counties that have chosen to promote this 
voting choice, we are seeing as much as 50 percent of the 
registers voters signing up for this. In Santa Barbara County, 
85,000 voters are signed up as permanent absentee voters. This 
represents 48 percent of the 183,000 registered voters in the 
county.
    If you turn to the second chart in your handout, there is 
the Santa Barbara County absentee voting as a percent of 
registration or total ballots cast. And you can see it was very 
low back in the 1970s. But today, as a total of ballots cast, 
over half of the ballots cast in Santa Barbara County are cast 
absentee. In the June primary it was 60 percent.
    Many people ask, Does the increase in absentee voting lead 
to higher turnout? In my opinion it does. Let's look at the 
statistics for Santa Barbara County. On average, going back to 
1998 and through 12 general primary and special countywide 
elections, we find that absentee voters return their ballots at 
a 74 percent rate. That is on average. This compares to an 
average polling place turnout of 52 percent for the same 
period.
    Now if you turn to the next chart in my handout, you will 
see down at the right there in the yellow, I have highlighted 
it, and those are the return rates. There is a 52 percent 
return rate for the polling place over those 12 elections; 74 
percent return rate for absentee ballots.
    Now if you turn to the next chart in the handout, what I 
did was I just put together a quick little scenario here. If 
you look at the top box, that is the current situation in Santa 
Barbara County with 48 percent absentee voters; 48 percent of 
183,000 is 88,191 voters. If they return their ballots at a 74 
percent rate, that is 65,000 ballots returned.
    For the polling place voters there are 49.6 percent; that 
is 91,000 times 52 percent, 47,000. So what you get is 115,000 
returned ballots using those statistics. That is almost a 63 
percent turnout rate.
    If we go back to the 1990s in scenario two when Santa 
Barbara County only had 25 percent absentee, you apply those 
same statistics and you can see that we are only going to get 
106,000 voters actually voting, for 58 percent.
    So just with this little--these are just pure statistics, 
we are showing that by increasing your absentee voting, here 
was a 5 percent increase. And if you went from no absentee 
voters to more, then you could increase it even more.
    There are a lot of issues involved with absentee voting. I 
have a list there going from cost, security, to voter file 
maintenance. I am happy to answer questions on any of those, 
and thank you very much for having me.
    Ms. Lofgren. Thank you very much.
    [The statement of Joseph Holland follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.046
    
    [GRAPHIC] [TIFF OMITTED] 40511A.047
    
    Ms. Lofgren. Mr. Bechtle, we are pleased to hear from you 
now.

                 STATEMENT OF JONATHAN BECHTLE

    Mr. Bechtle. Thank you, Madam Chairwoman and members of the 
committee. My name is Jonathan Bechtle and I am an attorney and 
director of the Voter Integrity Project at the Evergreen 
Freedom Foundation, which is a nonprofit nonpartisan group in 
Olympia, Washington.
    My purpose today is to share my concerns about the proposal 
to expand the use of mail ballots. Washington's elections are 
almost entirely vote-by-mail, and based on the State's 
experience I believe that vote-by-mail is an inherently 
insecure system because election officials cannot verify who 
received the ballot, who actually votes it, and who actually 
returns it.
    There was an incident recently in Washington that I thought 
illustrated this well. There was a woman named Jane Balogh from 
a suburb of Seattle who was disturbed about the insecurity she 
saw in Washington's election system. So she decided to call 
attention to the problem by registering her dog, Duncan, to 
vote. She sent a registration form in for Duncan and 
subsequently received a ballot for him in the mail. She did not 
actually want to cast an illegal ballot, so she wrote void 
across the ballot and stamped it with a paw print on the 
signature line.
    Of course, she quickly got a phone call from election 
officials asking about the odd signature, and she explained 
what she was doing. They said dogs actually cannot vote in our 
elections. But the dog received ballots in two more elections 
before he was finally removed from the registration rolls.
    Under our vote-by-mail system, if Jane had actually used a 
signature on that ballot instead of a paw print, she could have 
cast those ballots, they would have been counted, and no 
questions would have been asked.
    While Jane did not exploit the weakness of vote-by-mail by 
casting illegal ballots for her dog Duncan, our 3-year 
investigation of Washington elections has shown that is not 
always the case. Due to the inherent insecurity of vote-by-mail 
and mail ballots, compounded by voter roll errors and misplaced 
trust in signature verification, hundreds of mail ballots have 
been cast unlawfully by ineligible voters.
    Washington State had a historically close Governor's race 
in 2004. By our research over 1,600 absentee ballots were 
miscounted or cast unlawfully in that election. That was 12\1/
2\ times the 133 vote margin of victory in the Governor's race. 
It wasn't a grand conspiracy by anyone; it was individual acts 
by voters made possible by an insecure vote-by-mail system.
    The 2004 election wasn't just a fluke. We have continued to 
find mail ballots unlawfully cast and counted. Last year we 
filed 30 complaints of double voting using mail ballots, and 
nearly all of them have been verified by law enforcement to be 
illegal double votes. We also have found that the insecurity of 
vote-by-mail is compounded by errors in the voter roll. Every 
flaw in the State's voter roll becomes a potential vote, 
because if the person is active on the roll, they get a ballot 
under vote-by-mail.
    So every dead voter, every noncitizen, and every felon on 
the rolls will get a ballot. Every duplicate registration will 
get two ballots and some of these will be unlawfully voted.
    For example, a county in Washington mistakenly sent out 
3,500 ballots to voters twice, so the voters received two 
ballots. 230 of the voters returned both of those ballots, and 
35 percent of those were counted despite security measures 
designed to prevent that type of double voting.
    Vote-by-mail insecurities are often obscured by a misplaced 
trust in signature verification. The reality of signature 
checking in Washington's election system is that it was done by 
a crew of temp workers who, after a few hours of training by 
the State patrol, are expected to sift through thousands of 
mail ballots trying to subjectively determine if the signatures 
match. We found dozens of situations where two ballots were 
cast by one voter with completely different signatures, yet 
they were both counted, and I included some of those in my 
packet that I turned in today.
    Unlike a polling place where trained workers can monitor 
who is voting and who is signing the poll book, mail ballots 
cannot be properly monitored. This has been demonstrated not 
just in Washington State but across America. I have submitted 
also a list of the many instances of absentee ballot fraud 
nationwide, as well as quotes from election and law enforcement 
experts of all political stripes who believe mail ballots are a 
primary source of voter fraud.
    Now, the desire to make voting more convenient or easy is 
an admirable one, but it shouldn't be done at the cost of 
security. Our investigation of Washington's vote-by-mail system 
demonstrates it is an inherently insecure system that has 
harmed public confidence in elections. A 2006 poll of 
Washington voters found that 53 percent of the voters in our 
State believe that voting fraud is a serious issue facing us.
    So in the interest of ensuring security and confidence in 
our elections, I would recommend against requiring or 
encouraging the unfettered spread of mail balloting. Thank you 
for your time.
    [The statement of Mr. Bechtle follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.048
    
    [GRAPHIC] [TIFF OMITTED] 40511A.049
    
    [GRAPHIC] [TIFF OMITTED] 40511A.050
    
    [GRAPHIC] [TIFF OMITTED] 40511A.051
    
    [GRAPHIC] [TIFF OMITTED] 40511A.052
    
    [GRAPHIC] [TIFF OMITTED] 40511A.053
    
    [GRAPHIC] [TIFF OMITTED] 40511A.054
    
    [GRAPHIC] [TIFF OMITTED] 40511A.055
    
    [GRAPHIC] [TIFF OMITTED] 40511A.056
    
    [GRAPHIC] [TIFF OMITTED] 40511A.057
    
    Ms. Lofgren. Thank you all for your testimony.
    Those bells that were ringing tell us that we have votes on 
the floor. We have one 15-minute vote and two 5-minute votes. 
So I think that given that there are questions, I am sure, for 
all of you, I wonder if we could agree to come back. Usually it 
takes us longer than 15 minutes, but to be back here at 3:30 
and we will get to our questions. And, again, thank you very 
much for your testimony, and we are in recess until 3:30.
    [Recess.]
    Ms. Lofgren. Well, we said 3:30, and it is not too bad for 
Congress time. It is 3:37. So we will now begin the time in our 
proceedings when we can engage in questions under the 5-minute 
rule.
    And I would like to recognize first Mr. Gonzalez for his 5 
minutes of questioning.
    Mr. Gonzalez. And I thank the Chairwoman.
    The reason she is deferring to me is that I am going to 
have to absent myself in a minute, so I apologize to the Chair 
and my colleagues here, but there is a markup in Energy and 
Commerce, and I have to discuss some parts of the bill with 
some individuals. I will be brief.
    Mr. Bechtle, like any system, there is cost-benefit 
analysis and such, and so there are always different concerns 
and factors. One that we seek, of course, is increase in 
participation. You do that by making it more convenient for 
people to vote. I know there are many people out there who 
really don't understand that, even with early voting in Texas 
and such, it is still difficult for individuals to vote. And so 
that is why I find the no-excuse mail ballot such an attractive 
proposition.
    But you pointed out what was an obvious abuse; that was by 
Jane--I guess it is Balogh? In Texas, you register to vote, 
right? And then you get a voter registration. So I take it that 
this dog had a voter registration? Or how did it work in that 
State?
    Mr. Bechtle. Right. She filed a voter registration form for 
the dog.
    Mr. Gonzalez. And did the voter registration also bear a 
paw print.
    Mr. Bechtle. No. She must have put a signature on the----
    Mr. Gonzalez. Oh, exactly. That is what I am getting at, 
you see.
    Mr. Bechtle. Right.
    Mr. Gonzalez. And I know that that is a--it is kind of a 
cute example but so misrepresentative of what really is going 
on out there. What really happened there--I don't know the 
facts of that case, but it tells me that there was a voter 
registration card obtained invalidly and fraudulently, and she 
should have been prosecuted for that. It was a cute trick, 
then, to cast the ballot when, in fact, she was already party 
to obtaining the voter registration fraudulently. So I think we 
have to be real careful with that.
    But don't you think that, given what we already have 
experienced in other States where fraud has not been 
demonstrated but an increase in voter participation has been 
experienced, isn't this a worthwhile endeavor in what we are 
seeking, some of us here in Congress, especially Congresswoman 
Davis?
    Mr. Bechtle. Thank you for the question.
    I talked to a lot of different audiences in Washington 
State about this issue, and I agree that this is a convenient 
system; it is convenient for the voters.
    But when I have talked to voters about, ``Do you want a 
convenient system,'' and then also talk to them about, ``Here 
are the problems we have seen in Washington State,'' I have 
never had someone come to me and say, ``I wouldn't mind doing a 
little extra to make sure that my ballot is secure.'' They 
don't want to give up security just for the sake of 
convenience; they want that to be balanced.
    And that is what we are going for here. Convenience is not 
the end goal here. It must be convenient and secure. And we 
don't see that in this system, from our experience.
    Mr. Gonzalez. There is no absolute guarantee that any 
system is not subject to some sort of fraud. It is just a 
question of degree. And, I mean, people would love to say, why 
would we have any system that would allow any kind of fraud? 
Well, that is the reality. And I am just saying I think we have 
to really look at the big picture.
    I will share some of your concerns; I just don't think to 
the degree that you do. And I just think that we really need to 
have a really good-faith debate on the issue.
    And so, with that, I will yield back. Thank you very much.
    Ms. Lofgren. The gentleman yields back.
    The gentleman from California is recognized for 5 minutes.
    Mr. McCarthy. Well, thank you, Madam Chair.
    If I could ask the Secretary of State Markowitz--is that 
correct?
    Ms. Markowitz. Yes.
    Mr. McCarthy. In your comments, you had stated that you 
weren't the Secretary of State at the time that thought of the 
idea of going to absentee ballots, no excuse.
    Ms. Markowitz. That is right. It was before my time.
    Mr. McCarthy. So how long did it take to implement?
    Ms. Markowitz. Oh, it was implemented immediately. Well, 
you know, because there was already----
    Mr. McCarthy. Well, no, the person that started it is 
Governor now. How long did it take from when he requested it to 
it being implemented to the voters? How long did it take to do 
it in the State?
    Ms. Markowitz. You mean how long was it debated in the 
State, or how long did it take to implement it once it was 
passed?
    Mr. McCarthy. Once it was passed.
    Ms. Markowitz. Oh, it was inconsequential; it was 
immediately implemented. And that is because we had a system 
already in place for absentee ballots for people with excuses. 
All it took was changing the forms.
    Mr. McCarthy. Just changing the forms.
    Ms. Markowitz. Just changing the forms, yes.
    Mr. McCarthy. So you already had the absentee balloting. 
How much would a State take that doesn't have any absentee 
balloting to go into absentee balloting?
    Ms. Markowitz. Well, every State has some kind of excuse 
absentee ballots. So I believe that every State would have the 
same experience. It would mean, you know, printing up new forms 
that have taken out the excuse provisions.
    Mr. McCarthy. And do you use the computer, like they do in 
L.A., to check the signatures?
    Ms. Markowitz. We don't. And, in fact, in Vermont, we don't 
have signatures; we don't require a signature. We don't require 
signatures for voters coming in either.
    Instead--understand, Vermont is a small, rural place, so I 
am not sure that I would recommend this system for L.A. County, 
you know, for larger, urban areas. But, in Vermont, the 
accountability comes from the fact that we all know each other, 
in our smaller communities especially, and we have this 
transparency and accountability.
    Mr. McCarthy. So if I mail it to you, it is just because I 
wrote on the front my return address?
    Ms. Markowitz. No, no, you still have to sign. You are 
signing a sworn affidavit, and it is on the envelope. We don't 
do a signature match, though. We don't keep a signature for 
voters, and we never have. We haven't had any problems----
    Mr. McCarthy. But if I showed up at the poll, you would 
know me because you had seen me. If I voted by mail----
    Ms. Markowitz. No, we also trust you. So we might know you, 
or we might not know you. But you come in and you state your 
name. There are poll watchers, who are observing. It is a 
public process, and if they know that you are not you, they can 
say, ``Hey, I am challenging. I don't believe he is him.'' And, 
in fact, in the last election, we had a person coming in to 
vote for his father----
    Mr. McCarthy. But if I mail one in, and I didn't give it to 
the post person and I gave it to the mailbox, how do you know I 
did it?
    Ms. Markowitz. Because it is on the public record, and so 
if somebody knows that it could not have been you, they will 
report that.
    In fact, in the last election, we had that happen, where, 
in the town of Stowe, there was a belief that a father voted a 
ballot for a daughter. And it was investigated and, indeed, 
found that the person who believed a certain set of facts was 
indeed mistaken, and the daughter swore that it was her own 
ballot. So it was followed up with.
    Mr. McCarthy. If I could ask Ruth Goldway, in your bio, it 
says you are postal regulation committee. Is that correct?
    Ms. Goldway. Commissioner, yes.
    Mr. McCarthy. Commissioner, yes. And then you stated--
correct me if I am wrong--from the standpoint that you felt 
absentee balloting was rather safe, one of the safest.
    Ms. Goldway. Yes.
    Mr. McCarthy. Have you had, as the postal regulator, any 
history or any knowledge of any problems with absentees going 
through the mail with any postal workers?
    Ms. Goldway. No, I have no knowledge of complaints 
regarding missing absentee ballots. We have received occasional 
complaints about missing mail of one sort or another, but we 
have certainly never received anything about absentee ballots. 
And to the extent that we receive complaints about missing 
mail, it is more likely advertising mail.
    Mr. McCarthy. More that.
    Are you familiar with--here is a January 20, 2007--a postal 
carrier had been sentenced to 18 months in jail and found 
guilty of conspiracy to prevent others from exercising their 
right to vote, where they actually took the ballots when they 
came. There was 13 other people charged in the process.
    Ms. Goldway. I am not familiar with the case.
    Mr. McCarthy. Is there any chance, based upon the job that 
you have as postal, that you can request from the Postal if 
they have had any reports in any other place such as this one, 
of someone going to jail, that is causing any problems?
    Ms. Goldway. I would be happy to.
    Mr. McCarthy. Okay. I appreciate that.
    If I could--Santa Barbara. You made the statement--and this 
was interesting, because, unfortunately, there are some 
people--and I tried to get to the bottom of it, too. In my 
household, my wife votes absentee and I go to the ballot box.
    And part of your conversation is you think it gives you a 
greater turnout, because 70-some percent of those who apply for 
absentee ballots return them, and of those who go to the ballot 
box it is only 52 percent, correct?
    Mr. Holland. On average.
    Mr. McCarthy. On average. Is there any deadwood on those 
that are just on the voter file, though? Do you still have 
deadwood, or have you cleaned all that out?
    Mr. Holland. If you look at the statistics on the chart 
that I have up there, you can see, if you go back to 1998, 
that----
    Mr. McCarthy. You had more. You had 200-and-some-odd----
    Mr. Holland. We had 244,000----
    Mr. McCarthy. And now you are down to 190-something----
    Mr. Holland. And now we are down to about 183,000. I think 
you will see the same trend across the State of California, 
because, with vote by mail, you tend to better maintain your 
voter file, because you are sending absentee ballots. If they 
come back, then----
    Mr. McCarthy. In California, I can also select what I got 
in the mail this week, permanent absentee ballots. So once I 
send that back in, you will always send me a absentee ballot, 
whether I request it or not, correct?
    Mr. Holland. That is correct.
    Mr. McCarthy. How do you check when somebody moves, knowing 
the mobility of people?
    Mr. Holland. Well, what we do is, about 120 days before 
each and every election, we send a postcard to all permanent 
absentee voters reminding them that they are an absentee voter, 
that they will be receiving a ballot, and if they have changed 
their address, to let us know. If we get those back as 
undeliverable, then we outreach to them again to try and get 
their correct address.
    And then, if you are not a permanent absentee voter, we are 
actually sending you an application to ask if you want to be an 
absentee voter. Again, if we get that back as undeliverable, 
then we will outreach to those folks too.
    So what we are doing is we are better maintaining the voter 
file that way, in addition to all our regular voter-file-
maintenance efforts. But this is really just an outreach effort 
as part of our ongoing absentee process.
    Mr. McCarthy. And then, if I could just refer back to the 
Secretary of State, just since I have you here, because this 
committee had another debate on H.R. 811. Are you familiar with 
it, Holt's bill?
    Ms. Markowitz. Yes.
    Mr. McCarthy. Do you support that?
    Ms. Markowitz. I support pieces of it. I----
    Mr. McCarthy. Do you support the bill entirely, as it is 
written today?
    Ms. Markowitz. I have would have to take a look at all the 
provisions before I could tell you that answer.
    Mr. McCarthy. Okay.
    Madam Chair, I don't know if this is an appropriate time, 
but I have several articles that I referred to during 
questioning that I ask unanimous consent to enter into the 
record.
    Ms. Lofgren. Without objection, they will be entered into 
the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.058
    
    [GRAPHIC] [TIFF OMITTED] 40511A.059
    
    [GRAPHIC] [TIFF OMITTED] 40511A.060
    
    [GRAPHIC] [TIFF OMITTED] 40511A.061
    
    [GRAPHIC] [TIFF OMITTED] 40511A.062
    
    [GRAPHIC] [TIFF OMITTED] 40511A.063
    
    [GRAPHIC] [TIFF OMITTED] 40511A.064
    
    [GRAPHIC] [TIFF OMITTED] 40511A.065
    
    [GRAPHIC] [TIFF OMITTED] 40511A.066
    
    [GRAPHIC] [TIFF OMITTED] 40511A.067
    
    [GRAPHIC] [TIFF OMITTED] 40511A.068
    
    [GRAPHIC] [TIFF OMITTED] 40511A.069
    
    [GRAPHIC] [TIFF OMITTED] 40511A.070
    
    [GRAPHIC] [TIFF OMITTED] 40511A.071
    
    [GRAPHIC] [TIFF OMITTED] 40511A.072
    
    [GRAPHIC] [TIFF OMITTED] 40511A.073
    
    [GRAPHIC] [TIFF OMITTED] 40511A.074
    
    [GRAPHIC] [TIFF OMITTED] 40511A.075
    
    [GRAPHIC] [TIFF OMITTED] 40511A.076
    
    Ms. Lofgren. And the gentleman's time has expired.
    I now turn to the gentlelady from California, our colleague 
and the author of the bill, Congresswoman Davis.
    Mrs. Davis of California. Thank you. Thank you very much.
    Thank you to all of you for being here.
    Secretary Markowitz and Mr. Holland, I am just wondering, 
in your communities, if you announce that no longer were people 
able to vote no-excuse absentee balloting, what do you think 
the reaction would be?
    Ms. Markowitz. Well, I would very shortly lose my office. 
You know, our voters in Vermont think this is really a terrific 
asset. And actually, the thinkers, the political scientists, in 
Vermont who spend time looking at, you know, who isn't voting 
and how can we encourage them to vote, see voting at home as 
the way to reach those voters.
    In Vermont, we have a problem with literacy, particularly 
with a number of our adults. And we find that a person who is 
not confidently literate or a person who has disabilities that 
wouldn't prevent them from coming to the polling place but make 
them uncomfortable doing so are much happier taking their time 
at home with the ballot and sending it back by mail.
    Mr. Holland. And in Santa Barbara County, I think there 
would be a huge uproar about it. People are very comfortable 
having that choice. And, as I see it, absentee voting, or 
permanent absentee voting, is about choices. It is about 
improving services for our voters. And they would be very 
upset.
    Mrs. Davis of California. Yes.
    Mr. Bechtle, you sounded like you thought that the voters 
in Washington State were very uncomfortable with the process in 
their State. What do you think would be the reaction?
    Because, actually, as I read the statistics, it looks like 
it has caught on like wildfire in Washington State. But you are 
saying that you think people are really uncomfortable there. Is 
that correct?
    Mr. Bechtle. Not quite, Representative.
    Mrs. Davis of California. But if they did away with that 
process, what do you think the reaction would be?
    Mr. Bechtle. Well, I think it depends on whether you told 
folks and explained to them the reason why there were concerns 
about it. I think that if all they are hearing is that it is 
more convenient and that it is going to be easier to do, yes, 
it is a very popular system. But when you talk to them about, 
well, here are the problems that there are, then they say 
maybe, you know, I would like to change back the poll voting. 
And I know lots of folks who have made a change back to poll 
voting because of the concerns they have had with vote by mail.
    Mrs. Davis of California. That is interesting. Because it 
certainly looks like if it is spreading and people had a level 
of confidence, I guess I would wonder whether, in fact, they 
have the questions that they do. But I appreciate your 
response.
    I wonder, Commissioner Goldway, you mentioned tracking of 
mail and overnight packages and that using a bar code is a 
pretty inexpensive system. I actually have an interest in this, 
as I think you know, for tracking absentee ballots. And I am 
just wondering what you think, what is the best way to do that? 
And are there advantages or even disadvantages to trying to 
track by bar code, so that people know when the ballot is 
received by the registrar, when it is actually verified by the 
registrar and actually goes into the count.
    Ms. Goldway. The Postal Service is developing and is 
currently implementing on a pilot project an intelligent mail 
bar code for all automated mail, which would mean all bulk mail 
and all advertising mail. It would not necessarily be needed 
for an individual letter. But any mail that was provided by an 
election official could easily have that bar code, as well.
    And what they are anticipating is that, by 2009, all the 
mail that has these bar codes will be tracked within the Postal 
Service system. The Postal Service will know when it is 
received and when it gets to the letter carrier, so that if the 
election officials can work with the Postal Service to develop 
a supplementary code that tracks when the ballot leaves the 
printer to go to the voter or when the ballot is received at 
their office and then is tracked through the system to be 
counted and verified, et cetera, you could have a seamless 
system for very little money. Because the technology is already 
there, and it is bar code technology, which has been used for 
20 years. It is a question of just getting the systems to 
coordinate.
    Mrs. Davis of California. Yes. I wonder if you, just 
quickly--I know that my time is up--just the question of 
whether the fraud and error rate of absentee voting versus poll 
voting, how that stacks up. Do any of you have, I guess, a 
figure commenting on that error rate of absentee voting versus 
poll voting?
    Mr. Holland. In my opinion, I think that absentee voting or 
voting by mail is actually just more secure and less chance of 
fraud.
    In Santa Barbara County, in our mail ballot processing 
center, we have cameras on everything. Anybody that works there 
has an ID badge to get into the facility. We have a separate 
room where we store our ballots that has cameras in there. Our 
election computers are in a separate room with cameras. It is a 
very secure environment.
    And, again, we check those signatures against the 
signatures on file in our database. And those signatures that 
are on file in our database have been checked against the State 
database to make sure that they have a California driver's 
license number that matches that shows that they haven't voted 
anywhere else.
    So there are a lot of checks, and, to me, it is very 
secure. And I think that there are some opportunities for fraud 
at the polling place and more opportunity for error.
    Mrs. Davis of California. Mr. Bechtle, I am just going to 
let you respond. And do you have a rate that you believe is a 
fraud rate, either for absentee voting or at the polls.
    Mr. Bechtle. I don't, but I would be happy to do some 
research and get an answer to that back to you, if you would 
like.
    Mrs. Davis of California. Great. Thank you very much.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you.
    Mr. McCarthy. Madam Chair.
    Ms. Lofgren. Yes?
    Mr. McCarthy. At the end, I just want, pursuant to the 
House Rule XI clause, hereby request that minority members of 
the Subcommittee on Elections be granted a minority date of 
hearing on the matters related to expanding and improving 
opportunities of the vote by mail.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.077
    
    Ms. Lofgren. This will be dealt with according to the 
rules.
    Now I am going to engage in my brief questioning. I know 
that the Secretary of State has to leave for the airport, so I 
will be quick.
    I just want to say that the idea of one first-class stamp 
being enough for postage is such a good idea. I hadn't really 
thought of that before your testimony today. And I remember, I 
think it was last year--in California, we have these 
initiatives. And the weight of this thing, and people didn't--
in the end, the County of Santa Clara paid the difference, and 
people didn't know if their vote would count, and in some 
counties it didn't. So that is really a good idea, and I thank 
you for sharing that with us.
    I would like to ask--Mr. Bechtle has raised a series of 
concerns in his testimony. And I am wondering, the two 
witnesses we have here who actually run elections, if you have 
any comments on those concerns and how they can be dealt with, 
if at all, or whether you share those concerns.
    And maybe we can start with you, Ms. Markowitz, since I 
know you have to leave.
    Ms. Markowitz. Thank you so much.
    You know, when you are making decisions and considering 
voting systems, you are always making a cost-benefit analysis 
of some sort. And I would suggest that there is no perfectly 
secure way of voting. You know, in Vermont, we had somebody 
come in and vote for his father. His belief was that he was 
voting the way his father told him. You know, he was picking up 
his prescription, and he was doing chores, and this was just 
another chore.
    And so, I think the challenge for election administrators 
is public education, so the public knows what is required of 
them.
    You know, we hear statistics a lot about felons improperly 
voting. And part of the time, in many cases, it is because they 
don't know they no longer can vote. They are not aware of that 
rule. Of course, in Vermont, felons can vote from prison. I 
mean, we have a different rule. In fact, we elected a 
Congressman, you should know, from prison; he won re-election 
from prison.
    So it is a cost-benefit analysis. And, in my view, the risk 
of fraud is low. The issue is whether or not there is a risk 
that a person voting at home will be the subject of undue 
influence. And we don't have a record of that. We don't have 
any indication that that is true.
    And the way I think we would be able to see it if it were 
happening is we would be receiving complaints. We would hear 
rumors, it would come to the surface, and then be prosecuted.
    But without real good evidence that there are abuses and 
fraud, you know, why would you limit something that obviously 
the public likes quite a bit? It is a big benefit to those of 
us who run elections on Election Day by reducing the lines, by 
making it less crazy. And it give us a measure of control over 
those ballots.
    And you heard from Ms. Goldway that, you know, people like 
voting by mail because it is a paper vote in places where they 
are not comfortable with the machines. You know, you have heard 
also that there can be many safeguards in the opening and 
processing of those votes to prevent problems on Election Day 
and problems with accounting.
    So I would suggest that it has been very successful in 
Vermont, and I don't see why it wouldn't be successful in other 
places.
    Ms. Lofgren. Mr. Holland.
    Mr. Holland. Thank you.
    Mr. Bechtle did mention one thing I jotted down to note. He 
said that he had an instance where somebody voted twice. That 
can't happen. When your absentee ballot hits our mail ballot 
processing center, we immediately know that you voted, and you 
can't send in another ballot, because we will know that you 
voted. It would be like, "Whoa, where did you get this other 
ballot?" Well, of course, we have never had that happen. There 
is a unique ID on that ballot.
    We had one case where a woman whose husband had died 2 days 
before she signed his ballot. Well, our signature-verification 
machine kicked that out, and we did not allow that ballot to be 
voted. The lady ended up getting a letter from the District 
Attorney's office.
    But those are just two examples of how we are managing the 
security of our vote by mail.
    Ms. Lofgren. Thank you very much.
    I just, before we close, I just would like to know--we got 
a call from the Secretary of State's office in the State of 
Washington, and they wanted to correct the record on the dog-
voting incident. I am going to report what that said, which is 
that Washington only requires residency and that the woman, the 
dog owner, changed the name on her utility bill to the dog's 
name, and then sent that bill in with the absentee ballot, and 
that she was prosecuted.
    So I would just note that, although we want to make sure 
that we have safe and secure elections, we also want to make 
sure that people have the ability to vote.
    And I think--I was walking over to the vote on the House 
floor with Mr. Gonzalez, and we were talking about primary 
elections. In California--we are always in Washington on 
primary elections. I love going--I mean, I am one of those 
people who just loves Election Day. I mean, I love to go down 
there. I used to like it as a little kid when I was 
volunteering. But I can't do that; I wouldn't be able to vote 
at all on primary election day.
     So, really, it is a very popular initiative. I think, 
really, your testimony has been food for thought.
     And I really do appreciate, again, Congresswoman Davis for 
the leadership that she has shown in bringing this matter 
forward.
     Mr. McCarthy. Madam Chair, can I have a point of personal 
privilege?
     Ms. Lofgren. Certainly.
     Mr. McCarthy. Just to correct the record. You had stated 
earlier, from one standpoint, you said something that I had 
done was a stunt, that you received a letter on Friday. I just 
wanted to correct that I provided the letter within 24 hours of 
the notice on Wednesday, that I did talk to you in person 
Monday night, but I did try to get a hold of you. You called me 
over the weekend, got my voicemail, unfortunately. I called you 
back within 2 minutes. Unfortunately you were busy, and your 
staff would not provide me a cell phone.
     So, one is it is not a stunt, asking that we have parity. 
Two is I talked to you in person. Three, I gave it on 
Wednesday.
     I do believe in the concept that--I understand I am not in 
the majority. But every 10 years, we take a census and we make 
these districts equal. I represent Republicans, Democrats, 
independents, Green Party. And I don't believe that they are 
any less than constituents of any other district. And I just 
believe, when we take election law forward, that it is equal 
to, especially based on what has gone on in this committee in 
the past, that we maintain the ability to have ideas on both 
sides, so we are well-informed.
     Ms. Lofgren. Before we recess--I don't want to unduly 
delay this. I just will say I didn't get the letter until later 
than you delivered it; I don't know why. I do believe that your 
behavior here today has been in the stunt category, but 
hopefully we will be able to move beyond these kinds of antics 
in the future.
     And this hearing is adjourned.
     [Whereupon, at 4:04 p.m., the subcommittee was adjourned.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 40511A.078
    
    [GRAPHIC] [TIFF OMITTED] 40511A.079
    
    [GRAPHIC] [TIFF OMITTED] 40511A.080
    
    [GRAPHIC] [TIFF OMITTED] 40511A.081
    
    [GRAPHIC] [TIFF OMITTED] 40511A.082
    
    [GRAPHIC] [TIFF OMITTED] 40511A.083
    
    [GRAPHIC] [TIFF OMITTED] 40511A.084
    
    [GRAPHIC] [TIFF OMITTED] 40511A.085
    
    [GRAPHIC] [TIFF OMITTED] 40511A.086
    
    [GRAPHIC] [TIFF OMITTED] 40511A.087
    
    [GRAPHIC] [TIFF OMITTED] 40511A.088
    
    [GRAPHIC] [TIFF OMITTED] 40511A.089
    
    [GRAPHIC] [TIFF OMITTED] 40511A.090
    
    [GRAPHIC] [TIFF OMITTED] 40511A.091
    
    [GRAPHIC] [TIFF OMITTED] 40511A.092
    
    [GRAPHIC] [TIFF OMITTED] 40511A.093
    

</pre></body></html>
